      Department of Homeland Security





    DHS Contracts Awarded Through Other Than Full and 

        Open Competition During Fiscal Year 2012 





OIG-13-36                                   February 2013

                          O.F.FlCE OF INSPECTOR GENERAL




                             FEB 01 1013

MEMORANDUM FOR:               Nick Nayak
                              Chief Procurement Officer
                                                 /)       y£' / -
FROM:                         Anne L. Richards r..c;v....~.<\ ~d~...
                              Assistant Inspector General for Audits

SUBJECT:                      DHS Contracts Awarded Through Other Than Full and Open
                              Competition During Fiscal Year 2012


Attached for your action is our final report, DHS Contracts Awarded Thraugh Other Than
Full and Open Competition Durinr} Fiscal Year 2012. We incorporated the formal
comments from the Offke ofthe Chief Procurement Officer in the final report.

The report contains one recommendation aimed at improving non-competitive
contracting. Your office concurred with the recommendation. Based on information
provided in your response to the draft report, we consider the recommendation
resolved and open. Once your office has fully implemented the recommendation,
please submit a formal closeout letter to us within 30 days S.() that we may close the
recommendation. The memorandum should be accompanied by evidence of
completion of agreed-upon corrective actions and of the disposition of any monetary
amounts.

Consistent with our responsibility under the Inspector General Act, we are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland security. We will post
the report on our website for public dissemination.

Please call me with any questions, or your staff may contact John E. McCoy II, Deputy
Assistant Inspector General, at (202) 254-4100 .

Attachment
                                         OFFICE OF INSPECTOR GENERAL
                                               Department of Homeland Security


   Table of Contents
   Executive Summary............................................................................................................. 1

   Background ........................................................................................................................ 2

   Results of Audit ................................................................................................................... 5

              Acquisition Documentation Trends for Noncompetitive Contracts ....................... 6
              Recommendation ................................................................................................. 11
              Management Comments and OIG Analysis ......................................................... 11

   Appendixes
    

              Appendix A:          Objectives, Scope, and Methodology ............................................ 13 

              Appendix B:          Management Comments to the Draft Report ............................... 15 

              Appendix C:          DHS Contract Files Reviewed ......................................................... 17 

              Appendix D:          Prior OIG Audit Results .................................................................. 18 

              Appendix E:          Major Contributors to This Report ................................................ 20 

              Appendix F:          Report Distribution ........................................................................ 21 


   Abbreviations
              APFS                  Acquisition Planning Forecast System
              CPO                   Chief Procurement Office
              DHS                   Department of Homeland Security
              EPLS                  Excluded Parties List System
              FAPIIS                Federal Awardee Performance and Integrity Information System
              FAR                   Federal Acquisition Regulation
              FPDS-NG               Federal Procurement Data System-Next Generation
              FY                    fiscal year
              HSAM                  DepartmentfoffHomelandfSecurityfAcquisitionfManual
              OIG                   Office of Inspector General
              PPIRS                 Past Performance Information Retrieval System
              SAM                   System for Award Management




www.oig.dhs.gov                                                                                                                 OIG-13-36
                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   Executive Summary
   On June 7, 2012, the U.S. House of Representatives passed H.R. 5855, Departmentfoff
   HomelandfSecurityfAppropriationsfAct,f2013. This bill included a requirement that the
   Department of Homeland Security Office of Inspector General review the Department’s
   contracts awarded through other than full and open competition during fiscal year 2012
   to determine compliance with applicable laws and regulations. We reviewed selected
   components’ contract files, as well as departmental policies, procedures, and
   management controls, to determine whether acquisition personnel appropriately
   documented and supported contract award decisions.

   The Department obligated about $389 million for noncompetitive contracts during fiscal
   year 2012. Our review of 40 contract files with a reported value of more than
   $174 million showed that, compared with previous reviews of noncompetitive contracts
   awarded during fiscal years 2008 through 2011, the Department continued to improve
   its management oversight of acquisition personnel’s compliance with policies and
   procedures. However, these personnel did not always document their consideration of
   vendors’ past performance when researching background on eligible contractors. As a
   result, the Department cannot be assured that acquisition personnel always awarded
   government contracts to eligible and qualified vendors as required.

   We are making one recommendation to the Department’s Chief Procurement Officer to
   continue improving acquisition management oversight of the Department’s compliance
   with documentation requirements.




www.oig.dhs.gov                              1                                      OIG-13-36
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Background
   According to the CompetitionfinfContractingfActfoff1984, with limited exceptions,
   contracting officers are required to promote and provide for full and open competition
   in soliciting offers and awarding Federal Government contracts. The Federal Acquisition
   Regulation (FAR) codifies uniform policies for acquiring supplies and services by
   executive agencies and requires Federal agencies to collect and report data to the
   Federal Procurement Data System-Next Generation (FPDS-NG).

   The government uses the data in FPDS-NG to measure and assess the impact of Federal
   procurement on the Nation’s economy. The system includes information on funds
   obligated and the extent of competition. The Office of Federal Procurement Policy
   requires Federal agencies to certify annually that the data entered into FPDS-NG are
   valid and complete. We relied on data in this system to identify noncompetitive
   contracts.

   The Federal Government historically has encouraged competition among vendors
   because of the potential benefits to both the Government and the general public.
   When multiple vendors compete for the Government’s business, the Government can
   acquire higher quality goods and services at lower prices. In addition, competition helps
   to reduce opportunities for fraud because it allows Government vendors to change
   regularly. Finally, competition helps Government officials ensure that citizens’ tax
   dollars are not wasted and that contracts are not awarded based on favoritism.

   Department of Homeland Security (DHS) Directive # 143-05, ProcurementfOversightf
   Program, dated August 28, 2012, which replaced Management Directive 0784,
   AcquisitionfOversightfProgram, dated December 19, 2005, includes procedures for the
   oversight of DHS’ procurement practices. According to the directive, the Procurement
   Oversight Program is designed to provide comprehensive insight into procurement
   practices throughout DHS. As depicted in figure 1, the Department’s process for
   awarding contracts through other than full and open competition begins when
   acquisition personnel identify a need. These acquisition personnel are to perform
   market research to determine the most suitable approach to acquire, distribute, and
   manage supplies and services to support the Department’s mission. Next, acquisitions
   are planned to help ensure that the Government is meeting its needs in the most
   effective, economical, and timely manner.

   FedBizOpps is the single, Government-wide point of entry for Federal procurement
   opportunities valued at more than $25,000. For DHS procurement opportunities valued
   at more than $25,000, acquisition personnel announce a solicitation on FedBizOpps

www.oig.dhs.gov                                2                                      OIG-13-36
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


   unless, for example, publication compromises national security, is not cost effective, or
   disclosure is not deemed in the Government’s best interest. When a Government
   agency awards a contract through other than full and open competition, according to
   the FAR, the agency must make the justification publicly available within 14 days of the
   award date, unless it uses the “Unusual and Compelling Urgency” exception, which
   allows for public availability within 30 days of the award date. Agencies also post the
   justification on FedBizOpps. Contract administration begins after acquisition personnel
   award the contract and post the justification on FedBizOpps.

   Figure 1. Process for Awarding Contracts Through Other Than Full and Open
   Competition




   Source: DHS Office of Inspector General.

   The following DHS entities have a role in managing these noncompetitive procurements:

       •	 The Senior Procurement Executive is accountable to the Chief Acquisition Officer
          for managing the DHS procurement function, and ensures procurement process
          integrity by conducting oversight reviews to verify compliance with procurement
          regulations, policies, procedures, and practices.

       •	 The Office of the Chief Procurement Officer ensures the integrity of all DHS
          acquisitions, according to DHS Management Directive 143-05. This office
          provides policy, procedures, guidance, and training to the Department’s
          acquisition workforce. It also oversees the acquisition of contracted goods and
          services for DHS through several entities, such as the Oversight and Pricing
          Branch in the office, DHS Competition Advocates, and DHS Heads of Contracting
          Activity.

       •	 Heads of Contracting Activity directly manage the acquisition functions of their
          respective components.

   On June 7, 2012, the U.S. House of Representatives passed H.R. 5855, Departmentfoff
   HomelandfSecurityfAppropriationsfAct,f2013,ffor the fiscal year (FY) ending September 30,

www.oig.dhs.gov                                   3                               	    OIG-13-36
                                 OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   2013. According to H.R. 5855, Section 519(d), the Office of Inspector General (OIG) is to
   review DHS contracts awarded during FY 2012 through other than full and open
   competition to determine departmental compliance with applicable laws and
   regulations. Further, when selecting noncompetitive contracts for review, OIG is to
   consider the following:

       •	 Cost and complexity of the goods and services provided under contracts 

          awarded through other than full and open competition; 

       •	 Criticality of these contracts to fulfilling the Department’s missions;
       •	 Past performance problems on similar contracts or by the selected vendors; and
       •	 Complaints received about the award process or contractor performance.

   DHS obligated about $389 million for noncompetitive contracts during FY 2012. This
   represents a decrease of more than $3 billion obligated through noncompetitive
   contracts over a 4-year period, as shown in figure 2.

   Figure 2. DHS Noncompetitive Contract Obligations, FYs 2008–2012


                                                         FY 2012 spending on
                                                         noncompetitive contracts
                                                         fell by about 89 percent
                                                         from FY 2008 levels.




              Source: DHS OIG.

   We reviewed select DHS component contract files for contracts awarded during FY 2012
   through other than full and open competition to determine whether component
   personnel included documentation and support in the contract files for contracting
   decisions made prior to awarding contracts, or during the preaward contracting phase.
   Critical preaward documents include proper justifications and approvals, adequate
   market research, and acquisition plans appropriate to the dollar values of the awards.


www.oig.dhs.gov                                4                                    	   OIG-13-36
                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   We also checked contract files for documentation to support consideration of vendor
   past performance. We considered missing documents or documents dated after the
   contract award date as deficiencies. We selected 40 noncompetitive contract awards
   with a total value of more than $174 million. We also reviewed DHS policies,
   procedures, and management controls to determine whether acquisition personnel
   appropriately documented and supported contracting decisions.

   Results of Audit
   During FYs 2008 through 2011, we reported that DHS made overall improvements in its
   acquisition management oversight. However, as depicted in table 1, some of the 40 FY
   2012 noncompetitive contract files that we reviewed had documentary deficiencies.

   Although deficiencies in documenting justification, approval and acquisition plans
   decreased compared to prior years, market research remained constant. The 40
   FY 2012 noncompetitive contract files that we reviewed did not always have sufficient
   evidence that the Department considered vendors’ past performance. These
   deficiencies occurred because the Office of the Chief Procurement Officer did not
   ensure that acquisition personnel included required documentation in the contract files
   to adequately support using other than full and open competition.




www.oig.dhs.gov                               5                                      OIG-13-36
                                 OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


   Table 1. FY 2012 Noncompetitive Contract File Deficiencies

                                                                                            Percentage
         Data Reporting                              Files Requiring the Data   Deficient       of
                                 Contract Files
          Requirement                                Reporting Requirement      Contract     Deficient
                                  Reviewed
        (Documentation)                                  (Documentation)          Files      Contract
                                                                                               Files
    Justification and approval        40                         17                0           0%
    Market research                   40                         40                1          2.5%
                                             Acquisition Plans
    Written acquisition plan
    for acquisitions valued at        40                         5                 1           20%
    $10 million or greater
    Advanced acquisition
    plan in Acquisition
    Planning Forecast System
                                      40                         35                11          31%
    (APFS) for acquisitions
    valued at less than
    $10 million
                                       Past Performance Assessment
    Excluded Parties List
                                      40                         40                10          25%
    System (EPLS)
    Past Performance
    Information Retrieval             40                         40                25          63%
    System (PPIRS)
    Federal Awardee
    Performance and
                                      40                         40                26          65%
    Integrity Information
    System (FAPIIS)
   Source: DHS OIG.

   As a result, DHS cannot be sure that it received the best possible value on the goods and
   services acquired through these noncompetitive contracts. In addition, the Department
   cannot be certain that acquisition personnel awarded contracts to eligible and qualified
   vendors.

           Acquisition Documentation Trends for Noncompetitive Contracts

           In reviewing noncompetitive contracts at DHS awarded during FYs 2008 through
           2011, we noted that the Department showed improvement in documenting and
           supporting noncompetitive contract decisions during this 4-year period.
           Appendix D represents, by percentage, the deficiencies noted during FYs 2008
           through 2011 by oversight area. We previously reported that deficiencies

www.oig.dhs.gov                                     6                                            OIG-13-36
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           declined in documenting justification and approval, market research, acquisition
           planning, and assessment of vendors’ past performance; we attributed the
           decline in deficiencies to increased acquisition management oversight. In
           FY 2012, 31 of the 40 contracts we reviewed had deficiencies in one or more of
           the same four areas.

           In FY 2012, DHS continued to improve its documentation of justification and
           approval, market research, and advanced acquisition planning. However, the
           Department needs to improve monitoring compliance with requirements to
           document assessment of vendors’ past performance, which support decisions to
           award noncompetitive contracts.

           Justification and Approval

           Although competition is the preferred method of acquisition in the Federal
           Government, according to FAR §§ 6.302-1–6.302-7, contracts may be awarded
           through other than full and open competition in any of the following
           circumstances:

                  •	 Only one responsible source and no other supplies or services will satisfy
                     agency requirement;
                  •	 Unusual and compelling urgency;
                  •	 Industrial mobilization; engineering, developmental, or research 

                     capability; or expert services; 

                  •	 International agreement;
                  •	 Authorized or required by statute;
                  •	 National security; or
                  •	 Public interest.

           According to the FAR, contracting officers are required to provide written
           justification when agencies acquire goods or services through other than full and
           open competition, with certain exceptions. For contracts that require written
           justification, the contracting officer must certify that the justification is complete
           and accurate. Further, the appropriate agency authority must approve the
           justification.

           Depending on the dollar value of the acquisition, justification approval
           requirements may vary. For example, contracts valued at $650,000 or less
           require contracting officer approval; contracts valued at more than $650,000 but
           less than $12.5 million require the approval of the DHS component Competition

www.oig.dhs.gov                                   7                                  	     OIG-13-36
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           Advocate, unless the component lowers the threshold for contract values that
           require Competition Advocate approval.

           According to the FAR, there are some exceptions to the requirement for written
           justification and approval in awarding noncompetitive contracts (see figure 3).

           DHS continued to improve documenting
           justification and approval for awarding           Figure 3. Some FAR Exceptions to Requirement
                                                             for Written Justification and Approval of
           noncompetitive contracts. We reviewed             Noncompetitive Contracts
           our audit reports from FYs 2008 through
                                                             1. Agency need for a brand name commercial
           2011 and compared the percentage of
                                                             item for authorized resale.
           deficiencies in justification and approval
                                                             2. Acquisition from qualified nonprofit agencies
           documentation. In previous years, the             for the blind or other severely disabled.
           percentage of deficiencies identified in
                                                             3. Sole source awards under the 8(a) Program
           files fell steadily, from 27 percent in 
         valued at $20 million, or less.1
           FY 2008 to 5 percent in FY 2011. For the 
        4. A statute expressly requires that the
           FY 2012 contract files in our sample,             procurement be made from a specified source.
           17 of the 40 noncompetitive awards                5. The United States Coast Guard is exempt from
           required written justification and                the requirement for written justifications and
           approval. All of the files reviewed               approvals for contracts awarded citing an
                                                             international agreement.
           contained the required documentation 

           and support for justification and 
               Source: FAR Sections 6.302-5(a)(2)(ii), (c)(2)(i), and
                                                             (c)(3); 6.302-5(b)(2); 6.302-5(b)(4), 6.303-1(b); 6.302-
           approval. DHS should continue its                 5(a)(2)(i) and (c)(2)(ii); and 6.302-4(c).
           acquisition management oversight to 

           ensure that it awards contracts properly. 


           Market Research

           In FY 2012, 39 of the 40 files reviewed showed that DHS acquisition personnel
           complied with FAR and HomelandfSecurityfAcquisitionfManual (HSAM)
           requirements to conduct market research, a key factor in acquisition
           decisionmaking, to ensure that the Department procured goods and services at
           reasonable cost, regardless of the status of competition. According to the HSAM,
           acquisition personnel must clearly document and include in the contract file
           market research efforts and results. Specifically, the acquisition team should use



   1
    The Small Business Administration’s 8(a) Program, named for a section of the SmallfBusinessfAct, is a
   business development program created to help small, disadvantaged businesses compete in the American
   economy and access the Federal procurement market. Participants are given preferential treatment in
   Federal contracting.

www.oig.dhs.gov                                      8                                                         OIG-13-36
                               OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           market research information such as independent Government cost estimates,
           wage determinations, and cost and pricing data to support price reasonableness.

           During FYs 2008 through 2011, DHS significantly improved its documentation of
           market research related to noncompetitive contracts. In FY 2008, about
           76 percent of the files we reviewed showed deficiencies in market research
           documentation; in FYs 2011 and 2012, 1 of the 40 (2.5 percent) contract files we
           reviewed did not include market research documentation. DHS should continue
           to ensure that its market research is adequately documented in order to acquire
           goods and services at the best value.

           Acquisition Plans

           In FY 2012, 28 of the 40 files (70 percent) we reviewed showed that components
           complied with DHS policy for documenting acquisition planning by including
           either a formal written acquisition plan or an advanced (streamlined) acquisition
           plan in the contract files.

           The HSAM includes guidance on documenting acquisition plans for goods and
           services procured through noncompetitive contracts. According to Appendix H
           of the HSAM, DHS is to prepare a formal written plan for acquisitions valued at
           $10 million or greater. Acquisitions that exceed the simplified acquisition
           threshold and are valued less than $10 million are to be entered into the
           Acquisition Planning Forecast System (APFS), eliminating the need for a written
           acquisition plan. Acquisition personnel are to include formal written plans and
           advanced acquisition plans in the contract files to document their efforts to
           forecast and publicize contracting opportunities.

           DHS improved its documentation of acquisition planning in FY 2012 compared
           with previous fiscal years. Of the 40 FY 2012 contract files in our sample, 5
           (13 percent) were valued at more than $10 million and required a formal written
           acquisition plan. Four of the five contracts requiring written plans had
           documentation in the files. The remaining 35 files for contracts valued at less
           than $10 million each required advanced acquisition plans in APFS. We
           identified 11 of 35 (31 percent) files, worth approximately $14 million in total,
           that did not include documentation of advanced acquisition plans in APFS.

           Although the percentage of files with proper documentation has improved since
           FY 2011, in which 39 percent of files were deficient, DHS needs to continue to
           improve documenting acquisitions to comply with Federal regulations, which
           promote competition and help to select the appropriate contract type.

www.oig.dhs.gov                                9                                       OIG-13-36
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Vendors’ Past Performance

           DHS continues to be challenged in complying with requirements to assess and
           document vendors’ past performance. Our review of files for 40 noncompetitive
           contracts showed that acquisition personnel did not always document their
           assessment of past performance when determining contractor responsibility
           prior to contract award.

           The FAR and the HSAM both include requirements to consider information in
           certain systems when assessing vendors’ past performance. According to
           FAR § 9.105-1, contracting officers shall consider information from the Federal
           Awardee Performance and Integrity Information System (FAPIIS) when
           determining prospective contractor eligibility to do business with the Federal
           Government. This system links information from the Excluded Parties List
           System (EPLS) and the Past Performance Information Retrieval System (PPIRS) to
           enable users to access one system that captures the consolidated performance
           history of prospective contractors. According to HSAM Subchapter 3009.105-2,
           contracting officers shall include written evidence in contract files that they have
           considered information in FAPIIS, EPLS, and PPIRS.

           In July 2012, DHS implemented the System for Award Management (SAM). SAM
           was designed to combine several Federal procurement systems into one new
           system to reduce redundancy and provide a streamlined and integrated process
           for establishing and determining contractor responsibility and past performance
           history. The new system allows acquisition personnel access to the Central
           Contractor Registry, the Online Representations and Certifications Application,
           and EPLS to check contractor past performance information.

           In FY 2011, we noted deficiencies in documenting checks of FAPIIS in 90 percent
           of the contract files that we reviewed and in documenting checks of EPLS in
           10 percent of files that we reviewed. We did not report any deficiencies related
           to acquisition personnel checks for information in PPIRS.

           For the FY 2012 contract files in our sample, all 40 required documentation that
           personnel checked FAPIIS, EPLS, and PPIRS for information on vendors’ past
           performance. Of the 40 files we reviewed, 10 files (25 percent), valued at
           approximately $57 million, did not include documentation that acquisition
           personnel checked EPLS in accordance with the HSAM. In 25 of the 40 files
           (63 percent), valued at approximately $57 million, we did not find
           documentation that acquisition personnel checked PPIRS as required by the
           HSAM. In 26 of the 40 files (65 percent), valued at approximately $52 million,

www.oig.dhs.gov                                 10                                       OIG-13-36
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           there was no documentation that acquisition personnel checked FAPIIS as
           required by the FAR.

           DHS Heads of Contracting Activity should ensure that acquisition personnel
           follow departmental guidance in the HSAM and improve documentation of their
           efforts to assess vendors’ past performance prior to awarding contracts.
           Documenting that acquisition personnel checked and considered past
           performance information in FAPIIS, EPLS, and PPIRS can provide increased
           assurance that DHS awards contracts to responsible contractors.

           Recommendation

           We recommend that the DHS Chief Procurement Officer, in coordination with
           component Heads of Contracting Activities:

           Recommendation #1:

           Ensure that acquisition personnel document in the contract files that they
           checked information on vendors’ past performance in the EPLS, FAPIIS, and
           PPIRS before awarding noncompetitive contracts, as required by the Federalf
           AcquisitionfRegulationfand the HomelandfSecurityfAcquisitionfManual.

           Management Comments and OIG Analysis

           The Department provided comments to the draft report. A copy of the
           comments in its entirety is included in appendix B. The Department concurred
           with the recommendation in the report and indicated planned actions to address
           the recommendation.

           The Department also provided technical comments and suggested revisions to
           sections of our report. We made changes, as appropriate, throughout the report
           in response to these technical comments and suggested revisions where
           applicable.

            Recommendation #1

           DHS concurs with the recommendation. The Department indicated the Chief
           Procurement Office (CPO) will issue a DHS-wide Regulatory Reminder to
           contracting personnel emphasizing HSAM 3009.105-2. This advisory requires
           that contracting officers include written evidence in contract files that they have
           considered information in FAPIIS and EPLS. The CPO plans to also reinforce this

www.oig.dhs.gov                                11                                        OIG-13-36
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           requirement with each Component Head of the Contracting Activity and include
           a compliance review of this HSAM requirement as a part of the oversight
           checklist for contracting activity reviews. The Department estimates that
           implementation of these changes will be completed by March 1, 2013.

           Additionally, the Department stated that EPLS retired in November 2012 and all
           exclusions capabilities are now accessed through the SAM and plan to update
           the HSAM to reflect this name change once the FAR is updated.

           OIG Analysis

            The Department’s planned actions sufficiently address the recommendation.
           The recommendation is resolved, but will remain open until the Department
           provides (1) a copy of the DHS-wide Regulatory reminder to contracting
           personnel emphasizing HSAM 3009.105-2 to include written evidence in contract
           files that they have considered information in FAPIIS and EPLS; (2) a copy of the
           revised oversight checklist which includes a compliance check for HSAM
           3009.105-2; and (3) evidence of the HSAM update to reflect the name change
           from EPLS to SAM once the FAR is updated.




www.oig.dhs.gov                               12                                      OIG-13-36
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the HomelandfSecurityfActfoff2002 (Public Law 107-296) by amendment
   to the InspectorfGeneralfActfoff1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   On June 7, 2012, the U.S. House of Representatives passed a bill to make appropriations
   for DHS for the fiscal year ending September 30, 2013. H.R. 5855,fDepartmentfoff
   HomelandfSecurityfAppropriationsfAct,f2013, directs OIG to review the Department’s
   contracts awarded during FY 2012 through other than full and open competition to
   determine departmental compliance with applicable laws and regulations.

   Our objective was to review component files to determine whether DHS acquisition
   personnel documented and supported awarding contracts under the exceptions of
   other than full and open competition, and documented and supported their
   consideration of contractor past performance. We reviewed the contract files for
   adequate documentation and support for noncompetitive contracting decisions to
   justify the contract awards. In addition, we reviewed applicable Federal laws and
   regulations, as well as DHS and component-specific guidance, to identify requirements
   for noncompetitive contract awards. We also examined prior audit reports to identify
   related work and to assess trends in deficiencies with documentation and support
   identified during prior audits.

   We sampled contract files at four DHS procurement offices, United States Immigration
   and Customs Enforcement, the United States Coast Guard, United States Customs and
   Border Protection, and the Transportation Security Administration. We relied on data
   reported to FPDS-NG and selected files for review based on location, cost, complexity,
   and criticality to the DHS mission. We performed limited data reliability testing on the
   data pulled from FPDS-NG and found some issues in which we revised our scope and
   methodology. However, we believed that given the small number of issues identified, we
   were able to still rely on the data pulled from the system.

   We reviewed a judgmental sample of 40 contracts awarded during FY 2012 pursuant to
   the seven exceptions enumerated in FAR § 6.302. Specifically, we determined whether
   the noncompetitive contract files contained proper justification and approval, adequate
   market research, and acquisition plans appropriate to the values of the awards. We also
   checked contract files for documentation to support consideration of vendors’ past

www.oig.dhs.gov                               13                                      OIG-13-36
                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   performance. Because there is no assurance that a judgmental sample is representative
   of the entire universe, we did not project our review results to all DHS contracts.

   We conducted this performance audit between September and November 2012
   pursuant to the InspectorfGeneralfActfoff1978, as amended, and according to generally
   accepted government auditing standards. Those standards require that we plan and
   perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
   basis for our findings and conclusions based upon our audit objectives. We believe that
   the evidence obtained provides a reasonable basis for our findings and conclusions
   based upon our audit objectives.




www.oig.dhs.gov                              14                                      OIG-13-36
                                   OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report

                                                                               U.s. D~pa rtmtn t..,r   Ilomclllnd 5«urll}'
                                                                               WlIShington. D.C. 20528




                                                      January 16,2013


                  Anne L. Richards
                  Assistant Inspector General for Audits
                  Office of Inspector General
                  U.S. Department of Homeland Security
                  245 Murmy Drive, S.W. Building 41 0
                  Washington, D.C. 20528

                  Re:    Draft Report 0IG-12-006, "DHS Contracts Awarded Tlu"Ough Other Than Full
                         and Open Competition During Fiscal Year 2012"

                  Dear Ms. Richards:

                  Thank you for the opportunity to review and conmlent on this draft report. The U.S.
                  Department of Homeland Security (DHS) appreciates the UHS Office of Inspector
                  General's (OIG) work in planning and conducting its review and issuing this report.

                  The Under Secretary for Management (USM) is pleased to note OIG ' s positive
                  recognition that DJ IS spending on noncompetitive contracts fell by approximately 89
                  percent from Fiscal Year (FY) 2008 to FY 2012, and that the Department has continued
                  to improve its management oversight of acquisition pers{)nnd's compliance with polici es
                  and procedures. We also recognize the value ofOIG's acknowledgement that because
                  there is no assurance tht: judgmental sample reviewed during this (ludit is representative
                  of the entire universe of contracis awarded through other thon full and opcn competition
                  during FY 20 12, the fludit resliits cannOI be projected to all DHS contracts.

                  The draft report contained one recommendation to the DHS Chief Procurement Officer
                  (CPO) with which the Department concurs. Specifically. 010 recommended that the
                  DHS CPO, in coordination with component Heads o f Contracti ng Activities:

                  Recommendation I: Ensure thai acquisition personnel document in the contract files
                  that they checkeu infunlmliun on v~uors' pa.<.;t performance in the Excluded Parties Lisl
                  System (liP LS), Federal Awardee Performance and Integrity Information System
                  (F APIlS), and Past Perfol1llance 1nfnnnation Retrieval System (PPIRS) before awarding
                  noncompetitive contracts, us required by the Federal Acquisition Regula/ion (FAR) and
                  the Homeland Security Acqllisilion Manllal (HSAM).

                  Response: Concur. The Office of the CPO (OepO) will issue a DHS-wide Regulatory
                  Reminder to contracting personnel emphasizing Homeland Security Acquisition Manual
                  (HSAM) 3009.105-2, which requires that contracting officers include written evidence in
                  contract fi les that they have considered infonnatiun in F APITS and EPLS. FAPJlS is




www.oig.dhs.gov                                              15                                                              OIG-13-36
                                   OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security




                  accessed through PPIRS and includes both past perfonnancc infonnation and other
                  adverse infonnati on on Federal contractors.

                  It is also importanlto note that the EPLS system was retired in November 2012. Al l
                  cxclusions capabilities nrc now accessed through the System fo r Award Management
                  (SAM). The HSAM will be updated to reflect this name change once the FAR is
                  updated. The OCPO will also reinforce this requirement with each Componenl Head of
                  the Contract ing Activity. Additionally. the OCPO has incl uded a review of this HSAM
                  requirement as a part of our oversight check list for contracting activity revicws to verify
                  compliance with the FAR and HSAM. Si nce there is already existing policy in place to
                  check FAP II S and EPLS. the USM requests that O IG consider this recommendation
                  closed once oepo provides it a copy of the Regulatory Reminder to be issued.
                  Estimated Completion Date: March 1.20 13.

                  Again, thank you for the opportunity to review and comment on this draft report.
                  Technical comments werc previously suhmined under separate COVcf. Please feel free to
                  contact me if you have any questions. We look forward to working with you in the
                  future.


                                                         Sincerely.




                                                         Director
                                                         Departmental GAO·OIG Liaison Office




www.oig.dhs.gov                                               16                                                 OIG-13-36
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


   Appendix C
   DHS Contract Files Reviewed
                                 DHS Contract Files Reviewed, FY 2012*
                                1      HSBP1012C00040
                                2      HSBP1012C00036
                                3      HSBP1012C00044
                                4      HSBP1012C00013
                                5      HSBP1012C00092
                                6      HSBP1012C00108
                                7      HSBP1012C00113
                                8      HSBP1012C00112
                                9      HSBP1012C00079
                                10     HSBP1012C00124
                                11     HSCG2311CANS104
                                12     HSCG2312CPSB002
                                13     HSCG2312CADC404
                                14     HSCG2312CADC400
                                15     HSCG2312CADC405
                                16     HSCG2311CADW255
                                17     HSCG2312CP6CA01
                                18     HSCG2312CP6TU02
                                19     HSCG2312CPCI108
                                20     HSCG2312C2DA070
                                21     HSCG4012C10005
                                22     HSCG2312C2DA019
                                23     HSCG2312CADH007
                                24     HSCG4012C10007
                                25     HSTS0412CCT5000
                                26     HSTS0412CCT2014
                                27     HSTS0212CTTC447
                                28     HSTS0212CTTC106
                                29     HSTS0312CCIO668
                                30     HSTS0412CCT8010
                                31     HSTS0112CFIN004
                                32     HSTS0212CTTC306
                                33     HSTS0212CCGO032
                                34     HSTS0112CHRM069
                                35     HSTS0112COGS238
                                36     HSCEMS12C00006
                                37     HSCEMS12C00001
                                38     HSCEMS12C00002
                                39     HSCETC12C00004
                                40     HSCETC12C00002

   * Contract numbers downloaded from FPDS-NG. We gave each component a list of contracts reviewed
   with deficiencies noted during our review.




www.oig.dhs.gov                                   17                                          OIG-13-36
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix D
   Prior OIG Audit Results
   During FYs 2008 through 2011, we reported that DHS made overall improvements in its
   acquisition management oversight. As depicted in figure 4—

   •	 Justification and approval deficiencies dropped gradually between FY 2008 and
      FY 2011. The number of deficiencies we noted decreased from 27 percent in
      FY 2008 to 13 percent in FY 2009, and from 11 percent in FY 2010 to 5 percent in
      FY 2011.

   •	 Market research deficiencies rose slightly from FY 2008 to FY 2009 but declined
      sharply between FY 2009 and FY 2010. For example, we noted market research
      deficiencies in 76 percent of the files reviewed in FY 2008, and that figure rose to
      79 percent in FY 2009. The number of deficiencies declined to 7 percent of the files
      reviewed in FY 2010 and to 2.5 percent of the files reviewed in FY 2011.

   •	 Acquisition planning deficiencies dropped steadily from FY 2008 to FY 2010, but
      declined by only 2 percent between FY 2010 and FY 2011. We found acquisition
      planning deficiencies in 71 percent of the files reviewed in FY 2008. That percentage
      dropped to 53 percent in FY 2009, then continued to decline to 41 percent in
      FY 2010. We found acquisition planning deficiencies in 39 percent of the files
      reviewed in FY 2011, primarily because we did not find evidence in the contract files
      that acquisition personnel entered advanced acquisition plans in the new APFS.

   •	 Past performance deficiencies also declined between FY 2010 and FY 2011. Starting
      in FY 2010, we assessed the Department’s compliance with documenting checks for
      contractor past performance in the EPLS and noted deficiencies in 28 percent of the
      files we reviewed. For FY 2011, that number decreased to 10 percent of the files
      reviewed.




www.oig.dhs.gov                              18                                 	     OIG-13-36
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


   Figure 4. FY 2008–FY 2011 Trend Analysis of Noncompetitive Contract File Deficiencies 





       Source: Audit report OIG-12-37, DHSfContractsfAwardedfThroughfOtherfThanfFullfandfOpenf

       CompetitionfDuringfFiscalfYearf2011.


   Note: We did not evaluate past performance information in FYs 2008 and 2009. Also, the past performance
   results in the trend analysis chart pertain to documentation of checks in the EPLS and not deficiencies we
   identified with checks of the FAPIIS as required by the FAR.




www.oig.dhs.gov                                       19                                              OIG-13-36
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


   Appendix E
   Major Contributors to This Report

   Don Bumgardner, Director
   Beverly H. Bush, Audit Manager
   Pamela Brown, Auditor-in-Charge
   Jose Benitez-Rexach, Auditor
   Andrew Herman, Auditor
   Erica Stern, Program Analyst
   Juan Santana, Auditor
   Kelly Herberger, Communications Analyst
   Marisa Cocarro, Independent Report Referencer




www.oig.dhs.gov                            20                   OIG-13-36
                           OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


   Appendix F
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   DHS Chief Procurement Officer
   DHS Competition Advocate
   U.S. Immigration and Customs Enforcement Audit Liaison
   U.S. Coast Guard Audit Liaison
   U.S. Customs and Border Protection Audit Liaison
   Transportation Security Administration Audit Liaison
   Acting Chief Privacy Officer

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                             21                             OIG-13-36
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
